TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Network Devices Are Running Unnecessary
                    Communication Services Which
                     Could Expose Sensitive Data
                      to Unauthorized Individuals



                                     July 9, 2007

                         Reference Number: 2007-20-104



 The Treasury Inspector General for Tax Administration has designated this audit
 report as Sensitive But Unclassified pursuant to Chapter III, Section 23 of the
 Treasury Security Manual (TD P 71-15) entitled, “Sensitive But Unclassified
 Information.”     Because this document has been designated Sensitive But
 Unclassified, it may be made available only to those officials that have a need to
 know the information contained within this report in the performance of their
 official duties. This report must be safeguarded and protected from unauthorized
 disclosure; therefore, all requests for disclosure of this report must be referred to
 the Disclosure Section within the Treasury Inspector General for Tax
 Administration Office of Chief Counsel.




                               Sensitive But Unclassified


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                     Sensitive But Unclassified
                  Network Devices Are Running Unnecessary Communication
                       Services Which Could Expose Sensitive Data to
                                 Unauthorized Individuals




                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Joseph Cooney, Acting Audit Manager
Larry Reimer, Lead Auditor
Mike Howard, Senior Auditor
Bret Hunter, Senior Auditor




                              Sensitive But Unclassified
